5

No.

IN THE
SUPREME COURT OF THE UNITED STATES

Paula Jones
—PETITIONER
(Your Name)
vs.
United States Court of Appeals For The Fifth Circuit—RESPONDENT(S)
PROOF OF SERVICE
, do swear or declare that on this date, August. 26. 2021
, as
Paula Jones
I,
required by U.S. Supreme Court Rule 29,1 have served the enclosed PETITION FOR A
WRIT OF CERTIORARI on each party to the above proceeding or that party’s counsel,
and on every other person required to be served, by depositing an envelope containing the
above documents in the United States mail properly addressed to each of them and with
first-class postage prepaid, or by delivery to a third-party commercial carrier for delivery
within 3 Calendar days.
The names and addresses of those served are as follows:
1.

Solicitor General of the United States
Department of Justice
950 Pennsylvania Avenue, N. W.
Room 5616
Washington, DC 20530-0001

I declare under penalty of perjury that the foregoing is true and correct.
Executed on- August. 26. 2021

(Signature)

